No.

3Jn 1Ebe

~upreme ClCourt of tbe Wnfteb ~tates
ALFREDJ. WALKER,

Petitioner,

v.
N.C. ENGLISH,
WARDEN, USP-LEAVENWORTH,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Roman Martinez, counsel of record for Petitioner Alfred Walker, and a
member of the Bar of this Court, hereby certify that on the 8th day of July, 2019, I
caused to be served three (3) copies of the Petition for a Writ of Certiorari in the
above-referenced case by first-class mail, postage prepaid, upon counsel as listed
below:

Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov
Stephen R. McAllister
Thomas E. Beall
Office of the United States Attorney for the District of Kansas
1200 Epic Center
301 North Main Street
Wichita, KS 67202
(316) 269-6481
thomas. beall@usdoj.gov
Nicole English, Warden
USP Leavenworth
1300 Metropolitan Ave.
Leavenworth, KS 66048
(913) 682-8700
LVN/ExecAssistant@bop.gov

Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Petition for a Writ of Certiorari was transmitted to the above-listed
counsel at the referenced email address.
I further certify that all parties required to be served have been served.

2

1l.~~
By~~~~
~----~~~~~~~~
Roman Martinez

LATHAM & WATKINS

LLP

555 11th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Counsel for Petitioner

3

